18CA0334 Peo v Anderson 06-11-2020
COLORADO COURT OF APPEALS

DATE FILED: June 11. 2020
CASE NUMBER: 2018CA334

Court of Appeals No. 18CA0334
Larimer County District Court No. 16CR380
Honorable Julie Kunce Field, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Chayce Aaron Anderson,
Defendant-Appellant.
JUDGMENT AFFIRMED
Division VI
Opinion by JUDGE YUN
Richman and Dunn, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced June 11, 2020
Philip J. Weiser, Attorney General, Jennifer L. Carty, Assistant Attorney
General, Denver, Colorado, for Plaintiff-Appellee
Tanja Heggins, Alternate Defense Counsel, Denver, Colorado, for DefendantAppellant

APPewpix A

Chayce Aaron Anderson appeals his judgment of conviction.
We affirm.
I.
12

Background

Based on allegations that he and his friend, Jacob Ansari

broke into two construction sites and stole equipment from one of
them, Anderson was charged with four counts of second degree
burglary, a class 4 felony; criminal attempt to commit second
degree burglary, a class 5 felony; criminal attempt to commit theft
($20,000 or more, but less than $100,000), a class 5 felony; theft
($2000 or more, but less than $5000), a class 6 felony; and two
counts of misdemeanor criminal mischief. Following trial, the jury
returned guilty verdicts on all nine counts, and the court sentenced
Anderson to twelve years in prison.
13

On appeal, Anderson contends that (1) the district court erred

when it denied his request for substitute counsel, and (2) the
evidence was insufficient to support his seven felony convictions.
We address each contention below.
II.
14

Request for Substitute Counsel

Anderson contends that the district court erred when it denied

his request for substitute counsel. We disagree.
1

A.
1f 5

Additional Facts

Anderson was represented in this case and a prior case (the

sexual assault case) by the same alternate defense counsel. At the
arraignment hearing in this case, defense counsel mentioned that
Anderson would be appealing his conviction in the sexual assault
case and that, while Anderson had not expressed any
dissatisfaction with his services, it was common in his experience
for defendants to challenge their convictions based on ineffective
assistance of counsel. The court asked Anderson if he had any
concerns with defense counsel representing him in this case, and
Anderson said, “No.”
16

A week before trial, Anderson requested substitute counsel,

asserting the following:
• defense counsel was not representing him to the best of his
ability;
• defense counsel was intentionally providing ineffective
assistance and attempting to sabotage his right to a fair and
impartial jury trial;
• defense counsel had provided ineffective assistance in the
sexual assault case;
2

defense counsel had not shown him audio or video
discovery;
defense counsel had done little trial preparation with him;
defense counsel refused to file his requested pre-trial
motions;
defense counsel threatened him with 30.5 years in prison if
he did not take a plea deal;
defense counsel threatened him that his father would stop
speaking to him if he did not take a plea deal;
defense counsel was making up excuses to justify
continuing the trial; and
defense counsel refused to answer his questions.
In response, defense counsel filed a motion to withdraw.
17

A hearing on the motion was held before a different judge than

the one presiding over the case. To allow both Anderson and
defense counsel to freely discuss the alleged conflict, the
prosecution was not present at the hearing. Only Anderson
defense counsel, court staff, and the judge were present. At the
hearing, Anderson reasserted the claims in his request for
substitute counsel and testified that, while he believed defense
3

counsel “did a decent job” in the sexual assault case, he was going
to appeal on the ground of ineffective assistance of counsel because
he received an indeterminate life sentence. When the court asked
Anderson why he waited until a week before trial to raise the issue,
Anderson testified that he wanted to “comply with the courts” but
that he had wanted to fire defense counsel for a couple of months.
He testified that, while he thought defense counsel had performed
“rather well” in the sexual assault case because he was acquitted of
one of the charges, he felt that his “version of the story and the
truth” had not really come out at trial.
If 8

In response to Anderson’s allegations, defense counsel stated

that (1) he did not threaten Anderson with a 30.5-year prison term
if he went to trial, but rather had explained to Anderson that it was
part of his job to make sure Anderson was aware of the maximum
sentence he could face; (2) he had conveyed a message from
Anderson’s father verbatim, and made sure Anderson knew that the
message was from his father, not defense counsel; (3) he did not file
Anderson’s requested motions to recuse the district attorney and
suppress the search of a cell phone because he did not think they
were appropriate or would assist in the defense; (4) he had seen
4

Anderson four or five times since the last trial but had not had a
chance to show him audio or video discovery because of a computer
issue; (5) he was not purposely providing ineffective assistance of
counsel; (6) he had explained to Anderson that if he alleged
ineffective assistance of counsel on appeal in the sexual assault
case, there would be some waiver of attorney-client privilege and he
could be called to testify against Anderson; and (7) he had met with
Anderson and Anderson had provided him with additional
information about the case within “the past week,” but there had
been a total breakdown in communication “over the last couple of
days” because Anderson would not talk to him.
11 9

After hearing from Anderson and defense counsel, the court

made the following findings:
• Anderson’s request for substitute counsel, made the week
before trial, was not timely, as there was no reason why
Anderson could not have raised his concerns earlier.
• The inability to review audio and video discovery might be
grounds for a continuance, but was not grounds for
substitution of counsel.

5

• Anderson had provided “very little basis” for not being
comfortable with defense counsel, and there were no
grounds to believe defense counsel was purposely providing
ineffective assistance.
• Defense counsel’s explanation of the alleged threats was
more compelling than Anderson’s.
• No explanation had been provided as to how any future
claim of ineffective assistance of counsel in the sexual
assault case would negatively affect the evidence or
Anderson’s constitutional rights in this case.
• There had been a short period of time in which Anderson
chose not to communicate with defense counsel, but this
did not constitute “a communication so broken down that
the defendant cannot assist the attorney with a defense.”
• Defense counsel had done nothing but act appropriately in
refusing to file motions that were not proper, meeting with
Anderson four or five times since the last triad, and
conveying a message from Anderson’s father to Anderson.
• Anderson had not consistently aind persistently expressed
disagreement with defense counsel; rather, he had been
6

equivocal about whether defense counsel did a good job in
the sexual assault case and whether he was comfortable
with defense counsel representing him in this case.
• Anderson contributed to the conflict by refusing to talk to
defense counsel.
• Anderson’s request for substitute counsel had “earmarks of
a last-second attempt before trial to get a new lawyer
without sufficient constitutional legal grounds for it.”
Accordingly, the court denied Anderson’s request for substitute
counsel.
B.
t 10

Standard of Review

We review a district court’s denial of an indigent defendant’s

request for substitute counsel for an abuse of discretion. People v.
Johnson, 2016 COA 15, ^ 29. A district court abuses its discretion
“when its decision is manifestly arbitrary, unreasonable, or unfair,
or is based on an erroneous understanding or application of the
law.” Id.
C.

Ull

Law and Analysis

The Sixth Amendment right to counsel includes the right to

counsel of a defendant’s choice, and the right to the effective
7

assistance of counsel. U.S. Const, amend. VI; see also Colo. Const.
art. 2, § 16; Ronquillo v. People, 2017 CO 99, If 16; People v.
Arguello, 772 P.2d 87, 92 (Colo. 1989). However, “the right to
counsel of choice does not extend to a defendant who requires
counsel to be appointed for him.” Ronquillo, If 18. Rather, “[h]e is
guaranteed only effective assistance of counsel.” Id.
1 12

When an indigent defendant desires substitute counsel, he

must show good cause for the substitution. Id. at f 19. A
defendant may establish good cause by demonstrating a conflict of
interest, a complete breakdown in communication, or an
irreconcilable conflict that will lead to an unjust verdict. Arguello,
772 P.2d at 94. A court is not required to grant substitute counsel
unless it determines, after investigation, that a defendant’s
complaints are well founded. Johnson, | 30.
% 13

To examine the constitutional implications of an indigent

defendant’s request for substitute counsel, we must consider
“(1) the timeliness of the motion, (2) the adequacy of the court’s
inquiry into the defendant’s complaint, ... (3) whether the
attorney-client conflict is so great that it resulted in a total lack of
communication or otherwise prevented an adequate defense,” and
8

(4) “the extent to which the defendant ‘substantially and
unreasonably contributed”’ to the alleged conflict with counsel.
People v. Bergerud, 223 P.3d 686, 695 (Colo. 2010) (quoting United
States v. Lott, 310 F.3d 1231, 1250-51 (10th Cir. 2002)).
1 14

Anderson’s arguments on appeal focus on the last two factors.

He contends that his conflict with defense counsel was so great that
it resulted in a total lack of communication and that he did not
contribute to the conflict. We disagree.
f 15

There is no complete breakdown in communication when,

despite some communication difficulties, counsel is nonetheless
continuing to speak with the defendant and represent his interests.
Johnson, Tf 32; People v. Thornton, 251 P.3d 1147, 1151 (Colo. App.
2010); cf. Lott, 310 F.3d at 1249-50 (concluding that defendant was
entitled to a hearing when he alleged that he had virtually no
contact with his attorney, and had never been interviewed).
Although there was a short period of time in which Anderson and
defense counsel did not communicate, the court found that the
communication was not so broken down that Anderson could not
assist his counsel with a defense. Defense counsel had met with
Anderson four or five times since the last trial, reviewed some
9

discovery with him, and discussed Anderson’s requested motions
with him, although he did not file them because he concluded they
were inappropriate. See People v. Krueger, 2012 COA 80, | 14
(“Disagreements pertaining to matters of trial preparation, strategy,
and tactics do not establish good cause for substitution of counsel.”
(quoting People v. Kelling, 151 P.3d 650, 653 (Colo. App. 2006))). In
addition, Anderson and defense counsel were communicating about
the case within “the past week” before the hearing, when Anderson
provided defense counsel with additional information to investigate.
Thus, the record reflects that defense counsel was continuing to
speak with Anderson and represent his interests.
16

Further, the district court found, with record support, that

Anderson contributed to the conflict with defense counsel by
refusing to talk to him. See People v. Gonyea, 195 P.3d 1171, 1173
(Colo. App. 2008) (defendant contributed to conflict when he walked
out of the room during a meeting with counsel and advised her that
he would only communicate with her in writing). Anderson testified
that he was not comfortable with defense counsel, but provided
“very little basis” for his discomfort, and there were no grounds to
believe that defense counsel was providing ineffective assistance.
10

•*:

Specifically, the court did not find credible Anderson’s accusations
that defense counsel threatened him with a long prison sentence or

i

the loss of contact with his father; rather, the court found that
Anderson’s request had the “earmarks of a last-second attempt” to
get a new lawyer without sufficient legal grounds. See Lawry v.
Palm, 192 P.3d 550, 558 (Colo. App. 2008) (we defer to the district
court’s credibility determinations). Because the district court’s
findings are supported by the record, we perceive no abuse of
discretion.
f 17

Finally, the district court did not abuse its discretion in

finding that any future claim of ineffective assistance of counsel in
the sexual assault case would not negatively impact Anderson’s
constitutional rights in this case. See Gonyea, 195 P.3d at 1173
(trial court did not abuse its discretion in declining to appoint
substitute counsel where defendant’s concerns arose primarily out
of another case in which defendant was represented by the same
attorney). Despite stating that defense counsel had provided
ineffective assistance in the sexual assault case, Anderson was
equivocal about whether defense counsel did a good job in that case
and whether he was comfortable with defense counsel representing
11

4

him in this one. As defense counsel explained, it is a common
practice for defendants to challenge their convictions based on
ineffective assistance of counsel. Additionally, because, at the time
of trial, Anderson had not yet asserted the ineffective assistance of
counsel claim, there was no immediate concern that defense
counsel would have to testify against Anderson or divulge any
attorney-client communication in the sexual assault case. Thus,
the potential for a future claim of ineffective assistance of counsel in
a different case did not affect counsel’s ability to effectively
represent Anderson in this case.
1 18

In sum, we perceive no abuse of discretion in denying the

motion to substitute counsel. If a court has a reasonable basis to
conclude that, despite difficulties communicating with his client,
counsel can still render effective assistance, the court is justified in
denying a defendant’s request for substitute counsel. Id.
III.
f 19

Sufficiency of the Evidence

Anderson contends that the evidence was insufficient to

support his felony convictions. We disagree.

12

A.
*f 20

Additional Facts

Workers at a construction site in Fort Collins (the Cargill site)

found one morning that the window of the construction office trailer
was broken, the padlocks on subcontractor trailers had been cut,
and “a couple of sheds” had been broken into. Tools and
construction equipment including a survey laser and tripod, a set of
cordless tools, a paint sprayer, a power drain cleaner, and a
power-actuated nailing tool were missing.
f 21

A month later, the superintendent at another Fort Collins

construction site (the LDS site), who lived on site during the week,
woke up after midnight to banging noises. When he stepped
outside, he saw two people banging on the back of a subcontractor’s
semitrailer. He yelled at them, and they ran away. When he
started walking around the site to check on things, he saw that his
construction office trailer had been broken into, at which point he
called the police. He then noticed a pickup truck parked in a
location that was not usually a parking spot for vehicles. He got in
his own truck and “kind of circled” the “suspicious” truck until the
police arrived.

13

122

The superintendent took police officers around the site. They

found that the lock on a storage container (the Conex trailer) was
broken, the Conex trailer was open, and a dirt compactor that had
been stored inside was lying outside it. Next to the dirt compactor
was a sledgehammer that did not belong to anyone on site. The
back of the subcontractor’s semitrailer, which the superintendent
had seen two people banging on, was dented. A window of the
construction office trailer was broken, and inside, electronics and
construction equipment — including a concrete scanner, a piece of
surveying equipment called a Trimble S6, iPads, and miscellaneous
hand tools and computer equipment — had been “gathered up” and
“were ready to take.” A pair of red and black bolt cutters that did
not belong to anyone on site was also found at the scene.
1 23

The suspicious truck belonged to Anderson. Face masks,

another pair of bolt cutters, and Anderson’s cell phone were found
inside. After obtaining a search warrant, police analyzed the cell
phone and found (1) “pictures of construction equipment similar to
the item . . . that had been pulled out” of the Conex trailer at the
LDS site and (2) “a variety of [internet] searches for very specific
tools” that had been conducted the month before and matched tools
14

taken from the Cargill site. When a detective compared the “veryspecific searches” conducted on Anderson’s cell phone to a
database of items reported stolen in the county, he found that they
matched “all of those items associated with the Cargill burglary.”
1 24

Before trial, Anderson’s friend, Jacob Ansari, told conflicting

stories to the police, initially denying and then admitting that he
and Anderson carried out the two construction site burglaries.
Regarding the LDS burglary, Ansari testified that Anderson drove
them to the LDS site, that they entered the site together and broke
into the office trailer, that they used bolt cutters to open the Conex
trailer, and that Ansari ran away when someone started yelling
because “[i]t was every man for himself at that point.” Regarding
the Cargill burglary, Ansari testified that Anderson drove them
there, that they split up once they entered the site, and that
Anderson came back “with the tools and stuff’ and put them in his
truck. Cell phone records showed that both Anderson’s and
Ansari’s cell phones accessed cell towers near the LDS and Cargill
sites at the times of the burglaries.
% 25

As to the value of the items out of place at the LDS site, a

detective testified that the total value was $28,765. The detective
15

explained that he had researched each item on the internet, “taking
source information from multiple locations” to come up with a
“conservative” price in an “effort to paint it in a favorable light
towards the defendant.” The detective repeatedly stated that his
estimates were “conservative.” The LDS site superintendent
testified that, among the items out of place, the Trimble S6 alone
would cost about $15,000 to replace. Photographs of the
construction equipment and electronics found out of place were
introduced into evidence.
% 26

As to the value of the items taken from the Cargill site, the

Cargill site superintendent gathered a list of the missing items, and
his field operations manager determined the value of each item
based on his experience within the construction industry, arriving
at a total value of $4260. The superintendent, who testified at trial,
did not know whether the values determined by his field operations
manager represented the price of buying the items new, or the value
of the items in their used condition.
B.
*f 27

Standard of Review

We review the record de novo to determine whether the

evidence was sufficient to sustain the defendant’s convictions.
16

Clark v. People, 232 P.3d 1287, 1291 (Colo. 2010). Evidence is
sufficient to support a conviction if the direct and circumstantial
evidence, viewed as a whole and in the light most favorable to the
prosecution, is substantial and sufficient to support a conclusion
by a reasonable mind that the defendant is guilty of the offense
beyond a reasonable doubt. Id. “If the prosecution presents
evidence from which the trier of fact may properly infer the
elements of the crime, the evidence is sufficient to sustain the
conviction.” People v. Caldwell, 43 P.3d 663, 672 (Colo. App. 2001).
C.
1 28

Law and Analysis

A person commits second degree burglary if he or she

“knowingly breaks an entrance into, enters unlawfully in, or
remains unlawfully after a lawful or unlawful entry in a building or
occupied structure with intent to commit therein a crime against
another person or property.” § 18-4-203(1), C.R.S. 2019.
f 29

“A person commits theft when he or she knowingly obtains,

retains, or exercises control over anything of value of another
without authorization . . . and [ijntends to deprive the other person
permanently of the use or benefit of the thing of value.”
§ 18-4-401(l)(a), C.R.S. 2019.
17

I

1| 30

“A person commits criminal attempt if, acting with the kind of

culpability otherwise required for commission of an offense, he
engages in conduct constituting a substantial step toward the
commission of the offense.” § 18-2-101(1), C.R.S. 2019.
1.
f 31

LDS Site

Count 1 alleged a criminal attempt to commit theft of items

with a value between $20,000 and $100,000. Count 2 alleged a
second degree burglary of the Conex trailer. Count 3 alleged a
second degree burglary of the construction office trailer. Count 4
alleged a criminal attempt to commit second degree burglary of the
subcontractor’s semitrailer.
1 32

Anderson summarily asserts that the evidence was insufficient

to prove all of the elements of second degree burglary, attempt to
commit second degree burglary, and attempt to commit theft at the
LDS site. However, his arguments are developed only as to (1) his
identity as the person who committed the crimes, and (2) the value
of the items that were the basis for the attempt to commit theft
conviction. Therefore, we address the sufficiency of the evidence
only as it relates to those elements. See People v. Romero, 2015

18

CO A 7, If 53 (declining to review argument presented in a
perfunctory and conclusory manner).
a.
*f 33

Identity

Anderson argues that the prosecution failed to prove that he

was the person who committed the crimes at the LDS site because
(1) neither Anderson’s fingerprints nor his DNA were found on the
red and black bolt cutters, the sledgehammer, the dirt compactor
or any of the items moved around inside the construction office
trailer; (2) the evidence proved when and where Anderson’s cell
phone was accessed, but not that Anderson was the one using it;
(3) the LDS superintendent saw two people banging on the
subcontractor’s semitrailer but could not identify Anderson or
Ansari; and (4) Ansari changed his story and therefore his
testimony was not credible.
1 34

As to Anderson’s first three arguments, the absence of DNA or

eyewitness testimony does not negate the circumstantial evidence
in this case. See Pena v. People, 147 Colo. 253, 259, 363 P.2d 672,
674-75 (1961) (holding that the essential elements of a crime “may
be established by circumstantial evidence as well as direct”). Here,
police found Anderson’s truck at the scene; his cell phone contained
19

pictures of items similar to the one the culprits removed from the
Conex trailer; and cell phone data placed him at the site at the time
of the burglary. As to Anderson’s argument regarding Ansari’s
credibility,
[t]he determination of the credibility of the
witnesses is solely within the province of the
fact finder, and it is the fact finder’s function
in a criminal case to consider and determine
what weight should be given to all parts of the
evidence and to resolve conflicts, testimonial
inconsistencies, and disputes in the evidence.
People v. Chase, 2013 COA 27, | 50. Here, Ansari told police that
he and Anderson committed the crimes at the LDS site together.
Giving proper deference to the jury’s credibility findings, we
conclude that the evidence was sufficient to establish Anderson’s
identity as the person who committed the crimes at the LDS site
beyond a reasonable doubt.
b.
% 35

Value

Attempted theft is a class 5 felony if the value of the thing

involved is between $20,000 and $100,000, and a class 6 felony if
the value of the thing involved is between $5000 and $20,000.
§§ 18-2-101(4), 18-4-401 (2)(h), (g). When the value of a stolen item
determines the grade of the offense, the prosecution must present
20

competent evidence of the reasonable market value of the item at
the time of the theft. People v. Jensen, 172 P.3d 946, 949 (Colo.
App. 2007). Market value is what a willing buyer would pay to the
true owner for the item. People v. Moore, 226 P.3d 1076, 1084
(Colo. App. 2009).
U 36

To reach a verdict, “[j]urors must rely on the evidence

presented at trial and their own common sense.” Clark, 232 P.3d at
1293; see also People v. Marin, 686 P.2d 1351, 1355-56 (Colo. App.
1983) (“The jury’s very function is to use its ‘common sense and
ordinary experience’ in evaluating the evidence.”) (citation omitted).
However, a verdict in a criminal case cannot be based on guessing,
speculation, or conjecture. People v. Duran, 272 P.3d 1084, 1090
(Colo. App. 2011). Accordingly, there must be some basis for value
other than pure speculation. People v. Jamison, 220 P.3d 992, 993
(Colo. App. 2009); see also People v. Paris, 182 Colo. 148, 151, 511
P.2d 893, 894-95 (1973) (“Without competent evidence of fair
market value, the jury would have had to base its determination of
the value of the goods in question at the critical time on pure
speculation.”).

21

1 37

Anderson argues that the prosecution failed to prove that the

value of the items out of place at the LDS site was at least $20,000
because it was unclear from the detective’s testimony whether the
items he reviewed in his research were sufficiently similar in their
specifications and condition to the items at the LDS site. However,
the jury was also able to review pictures of the items, and could
reasonably infer that the items were in working order because they
were found at an active construction site. As to the Trimble S6
alone, the detective testified that it was worth $25,000, and the LDS
site superintendent testified that it would cost $15,000 to replace.
See Bums v. People, 148 Colo. 245, 251-52, 365 P.2d 698, 701
(1961) (the purchase price, junk price, replacement cost, use of the
article, and common knowledge may all be considered in
determining value).
f 38

Thus, we conclude that the evidence viewed as a whole and in

the light most favorable to the prosecution was sufficient to support
the jury’s determination that the items out of place at the LDS site
were worth at least $20,000.

22

2.
f 39

Cargill Site

Count 6 alleged theft of items with a value between $2000 and

$5000. Count 7 alleged a second degree burglary of the
construction office trailer. Count 8 alleged a second degree
burglary of the sheds.
f 40

Anderson again summarily asserts that the evidence was

insufficient to prove all of the elements of second degree burglary
and theft at the Cargill site. However, his arguments again are
developed only as to identity and the value of the items that were
the basis for the theft conviction. Accordingly, we address the
sufficiency of the evidence only as it relates to those elements.
a.
f 41

Identity

Anderson argues that the prosecution failed to prove that he

was the person who committed the crimes at the Cargill site
because there was no fingerprint or DNA evidence, and Ansari’s
testimony was not reliable. However, as discussed above,
circumstantial evidence is sufficient to sustain a conviction, Pena,
147 Colo, at 257-60, 363 P.2d at 674-75, and the credibility of
witnesses is up to the jury, Chase, Tf 50.

23

% 42

Here, cell phone data placed Anderson at the scene, and “very

specific” internet searches matching the stolen items were
conducted on his cell phone shortly after the items were stolen.
Further, Ansari testified that Anderson drove them to the Cargill
site and, after they split up, Anderson came back “with the tools
and stuff’ and put them in his truck. Giving proper deference to
the jury’s credibility findings, we conclude that the evidence was
sufficient to establish Anderson’s identity as the person who
committed the crimes at the Cargill site beyond a reasonable doubt.
b.
f 43

Value

Theft is a class 6 felony if the value of the thing involved is

between $2000 and $5000, and a class 1 misdemeanor if the value
of the thing involved is between $750 and $2000. § 18-4-401 (2) (f),
(e).
f 44

Here, the field operations manager valued the stolen items at

$4260 based on his experience in the construction industry. True
the superintendent stated that he did not know whether the values
determined by the field operations manager represented the price of
buying the items new, or the value of the items in their used
condition. However, given that the field operations manager valued
24

*

♦

the items at more than twice the amount necessary for the class 6
felony regardless of whether that value was based on new or used
equipment, average jurors would be able to use their common sense
to determine whether the aggregate market value of the missing
items — high-end, brand name power tools — exceeded $2000. See
Jamison, 220 P.3d at 994-95 (jury may be able to use its common
sense and knowledge to determine issues of value where there is a
large disparity between the statutory minimum amount required for
theft and the number and apparent value of the items stolen);
People v. Early, 692 P.2d 1116, 1120 (Colo. App. 1984) (regarding
the value of a stolen vehicle, “the use of the article and common
knowledge” left no reasonable basis for defendant to be convicted on
lesser offense (quoting Bums, 148 Colo, at 251, 365 P.2d at 701)).
% 45

Thus, we conclude that the evidence viewed as a whole and in

the light most favorable to the prosecution was sufficient to support
the jury’s determination that the items stolen from the Cargill site
were worth at least $2000.
IV.

Conclusion

The judgment is affirmed.
JUDGE RICHMAN and JUDGE DUNN concur.
25

DATE [FILED: JUrte 1 L 2020 7:59 AM
CASE NUMBER: 2018CA334

Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203
Larimer County
2016CR380
Plaintiff-Appellee:
The People of the State of Colorado,

A COURT USE ONLY A
Case Number:
2018CA334

V.

Defendant-Appellant:
Chayce Aaron Anderson.

ORDER OF THE COURT
DENIED.
Richman, J.
Dunn, J.
Yun, J.
Issue

6/11/2020

BY THE COURT

/

a PrerfDi x a

/
/

states the following:
1. On of the issues on appeal is whether the trial court abused its discretion

tv

in denying Mr. Anderson's request for the appointment of substitute counsel and
defense counsel's motion to withdraw.
2.

vt

PP
3

V

In support of the Attorney General's argument, thatVMr. Anderson's

request for substitution of counsel was properly deniec^Hhe Attorney General

fl\J

observed that in case no. 15CR1466 Mr. Anderson did not appeal on any grounds
related to the performance of counsel onJfi|ecfya Crim. P. 35(c) motion asserting
ineffective assistance of counsel inihe base as of the filing of the Answer Brief.
I P'?
{See AB, p 9, n 3.). Subsequent to the filing of the Reply Brief, Mr. Anderson filed

ts.U
a Petition for Postconviction Relief pursuant to Crim. P. 35(c) in case' no.

vv

C? V
15CR1466 asserting claims of ineffective assistance of counsel. The district court
W

*
'3'!^ y
appointed postconviction counsel for Mr. Anderson on March 19, 2020.
\V

3. ^The/purpose of the Surreply . Brief is to clarify that Mr. Anderson is
litigating claims of ineffective assistance of counsel in postconviction proceedings
in case no. 15CR1466. This court can take judicial notice of the information in the
state judicial computer database. See e.g., People v. Linares-Guzman, 195 P.3d
1130, 1136 (Colo.App. 2008).

2

CERTIFICATE OF SERVICE
I certify that on May 15, 2020, a true and correct copy of the foregoing
MOTION FOR LEAVE TO FILE SURREPLY BRIEF was electronically filed
via Colorado Courts E-filing System (CCES) addressed to the following: \X
Jennifer L. Carty, Esq.
Colorado Department of Law
Appellate Division
Ralph L. Carr Colorado Judicial Center
1300 Broadway, 9th Floor
Denver, CO 80203

J
/

K

' 1/
r ;

Heggins
C Tanja Heggins
\vJ

/;
fy \

(

C-1

•\\

pr

4

J

DATE FILED: November 16, 2020
CASE NUMBER: 2018CA334

Colorado Court of Appeals
2 East 14th Avenue
Denver, CO 80203
Larimer County
2016CR380
Plaintiff-Appellee:

Court of Appeals Case
Number:
2018CA334

The People of the State of Colorado,
v.
Defendant-Appellant:
Chayce Aaron Anderson.
MANDATE

This proceeding was presented to this Court on the record on appeal. In
accordance with its announced opinion, the Court of Appeals hereby ORDERS:
JUDGMENT AFFIRMED

POLLY BROCK
CLERK OF THE COURT OF APPEALS

DATE: NOVEMBER 16, 2020

A?9£npix 8

DATE FILED: November 16. 2020
CASE NUMBER: 2020SC608

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to the Court of Appeals, 2018CA334
District Court, Larimer County, 2016CR380
Petitioner:

Supreme Court Case No:
2020SC608

Chayce Aaron Anderson,
v.
Respondent:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, NOVEMBER 16, 2020.

fit??&NPIX S

Certification of Word Count 2,971
SUPREME COURT, STATE OF COLORADO
2 E. 14th Ave.
Denver, CO 80203
Certiorari to the Court of Appeals,
Case No. 2018CA0334
District Court, Larimer County, Case No.
2016CR380

CHAYCE AARON ANDERSON
Petitioner,

A COURT USE
ONLYA

v.
Case No. 20SC608
THE PEOPLE OF THE STATE OF COLORADO
Respondent.
Attorney for Petitioner:
Name:
Tanja Heggins, #32121
The Law Firm of Tanja Heggins, P.C.
Address: 303 South Broadway, Suite 200-363
Denver, Colorado 80209
Phone: (303) 893-1081
E-mail: heggins@thlawpc. onmicrosoft. com
Alternate Defense Counsel
PETITION FOR WRIT OF CERTIORARI

h??£hiV\X B

TABLE OF CONTENTS
TABLE OF AUTHORITIES

.2

ISSUE PRESENTED FOR REVIEW

4

OPINION BELOW

4

JURISDICTION

4

REFERENCE TO PENDING CASES WITH THE SAME LEGAL ISSUE

5

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

6

I. The court of appeals erred in holding the trial court did not abuse its
discretion in denying Mr. Anderson's request for the appointment of substitute
counsel and defense counsel's motion to withdraw

7

A. Additional Facts

7

B. Law and Analysis

11
17

CONCLUSION

1

TABLE OF AUTHORITIES
Cases
Anaya v. People, 764 P.2d 779 (Colo. 1988)

14

Crider v. People, 186 P.3d 39 (Colo. 2008)

11

People v. Anderson, 2018CA334 (Colo.App. June 11, 2020)
People v. Arguello, 772 P.2d 87 (Colo. 1989)
People v. Bergerud, 223 P.3d 686 (Colo. 2010)

passim
15
11, 12, 14

People v. Johnson, 2016 COA 15

10

People v. Kelling, 151 P.3d 650 (Colo.App. 2006)

12

People v. Krueger, 2012 COA 80

11

People v. Manyik, 2016 COA 42

11

People v. Rhea, 2014 COA 60

11

People v. Schultheis, 638 P.2d 8 (Colo. 1981)

12

Ronquillo v. People, 2017 CO 99

15

Other Legal Authorities
U.S. Const, amend. VI

11

U.S. Const, amend. XIV

11

Colo. Const, art. II, § 16

1

Colo. Const. Art. VI, §2(2)

3
2

C.A.R. 49

3

C.A.R. 53

3,4,5
3

§13-4-108, C.R.S. (2019)

3

Pursuant to C.A.R. 49, Chayce Aaron Anderson, the Petitioner herein,
respectfully requests this court to grant a writ of certiorari to the Colorado court of
appeals to review its decision. As grounds, Petitioner states as follows:
ISSUE PRESENTED FOR REVIEW
Whether the court of appeals erred in holding the trial court did not abuse its
discretion in denying Mr. Anderson's request for the appointment of substitute
counsel and defense counsel's motion to withdraw.
OPINION BELOW
A copy of the court of appeals' unpublished opinion in case no. 2018CA334,
People v. Chayce Aaron Anderson, is attached to this petition pursuant to C.A.R.
53(a)(6).
JURISDICTION
The court of appeals' opinion in People v. Anderson, supra, was issued on
June 11, 2020. This court granted an extension of time until September 3, 2020
within which to file this petition. Thus, this petition is timely.
This court's certiorari jurisdiction is invoked pursuant to Colo. Const. Art.
VI, §2(2); §13-4-108, C.R.S. (2019); and C.A.R. 49.

4

REFERENCE TO PENDING CASES WITH THE SAME LEGAL ISSUE
Counsel for Mr. Anderson is not aware of any case currently pending before
this court with an issue that is the same or similar to the issue raised in this
petition. See C.A.R. 53(a)(6).
STATEMENT OF THE CASE
In 2016, the prosecution charged Mr. Anderson by complaint and
information with criminal attempt to commit theft - $20,000 - $100,000 (F5)
(count 1), four counts of second degree burglary - of building (F4) (counts 2, 3, 7
and 8), one count of criminal attempt to commit second degree burglary (F5)
(count 4), criminal mischief - $300 - $750 (M2) (count 5), theft - $2,000 - $5,000
(F6) (count 6), and criminal mischief - under $300 (M3) (count 9). CF, p 27-31.
These charges arose, according to the prosecution, from an attempted theft and
burglary and theft and burglary from two construction sites in September and
October of 2014. CF, p 1-7.
The trial court denied Mr. Anderson's motion for judgment of acquittal. TR
10/24/17, p 118-119. Mr. Anderson's theory of defense was:
It is the theory of defense that, on the night of October 15, 2014 into the
early morning hours of October 16, 2014, Mr. Anderson consumed a large
amount of alcohol. He met two men outside of a bar who offered him
marijuana and a ride home if he would loan them his truck for the night. Mr.
Anderson agreed. The two men drove home and then left with his truck.
5

Mr. Anderson asserts that if his truck was used in the commission of a
crime, he is not involved.
It is the defense theory of the case that Mr. Anderson was not involved in the
crimes committed at 2410 E. Drake Road on or about September 14 and 15,
2014.
CF, p 224.
At the conclusion of the jury trial, Mr. Anderson was convicted of all nine
counts as charged. CF, p 307-317; TR 10/25/17, p 36-38. As to count 1, the jury
found that the value of the items involved in the theft was $20,000 or more but less
than $100,000. CF, p. 307. As to count 6, the jury found that the value of the
items involved in the theft was $2,000 or more but less than $5,000. CF, p 313314.
Mr. Anderson was sentenced to 12 years in the Department of Corrections to
be served consecutive to the sentence imposed in Larimer County District Court
case no. 15CR1466 on January 19, 2018. CF, p 530-533; TR 1/19/18, p 41-43.
Mr. Anderson appealed the judgment of convictions to the court of appeals.
Anderson, ]f 1. The court of appeals affirmed the judgment of convictions. Id.
REASONS FOR GRANTING THE WRIT
This court should grant certiorari review Mr. Anderson's case under C.A.R.
49(b),(c) because the court of appeals' opinion decided a question of substance in a

6

way that is probably not in accord with applicable decisions of this court or other
divisions of the court of appeals.
I. The court of appeals erred in holding the trial court did not abuse its
discretion in denying Mr. Anderson's request for the appointment of
substitute counsel and defense counsel's motion to withdraw.
A. Additional Facts
Mr. Anderson was represented by Alternate Defense Counsel ("ADC") due
to an irreconcilable conflict of interest with the Public Defender's Office. CF, p
41-42; TR 10/17/17, p 15:12-18.
On October 15, 2017, Mr. Anderson wrote a letter to the trial court
requesting to fire his ADC counsel and for the appointment of substitute ADC
counsel. Seal (16CR380 - Sealed File) (Letter dated 10/15/17), p 3-4. Mr.
Anderson stated:
• He desired to fire his court appointed attorney;
• Counsel was not representing him to the best of his ability;
• Counsel was intentionally providing ineffective assistance of counsel;
• Counsel was attempted to sabotage his right to a fair trial and
impartial judge;
• He requested substitute counsel be appointed;
• Counsel provided ineffective assistance of counsel in a prior trial;
7

• Counsel refused to provided him with numerous items of discovery;
• Counsel has done little jury trial preparation with him;
• Counsel refused to file pretrial motions;
• Counsel threatened him with 30.5 years in prison if he refused to take
a plea offer;
• Counsel threatened him with his father's threat to discontinue
speaking to him if he did not take a plea deal;
• He is extremely uncomfortable proceeding with defense counsel as his
attorney;
• Counsel refuses to answer his questions about the case; and
• Requested that the court appoint new ADC counsel.
Seal (16CR380 - Sealed File) (Letter dated 10/15/17), p 3-4.
On October 16, 2017, defense counsel filed a motion to withdraw from
representing Mr. Anderson. CF, p 194-195. As grounds for the withdrawal, ADC
stated:
• Mr. Anderson stated during recent conversations that he did not feel
comfortable discussing his case with defense counsel;

8

• Mr. Anderson would not answer defense counsel's questions during
the most recent conversation and stated that he wanted defense
counsel fired and new counsel appointed;
• Defense counsel represented Mr. Anderson in case number
15CR1466, which was being appealed by Mr. Anderson and he would
claim ineffective assistance of counsel during the appeal;
• Due to the ineffective assistance of counsel claim, defense counsel
may be called to testify against Mr. Anderson in future proceedings;
• Mr. Anderson should not be forced to proceed to trial with an attorney
he believed is ineffective and he may loose the attorney-client
privilege;
• Both defense counsel and Mr. Anderson believe that Mr. Anderson
would be better served if new counsel were appointed; and
• "The attorney-client relationship has been irreparably broken."
CF,p 194-195.

9

A hearing on the motion to withdraw was held on October 17, 2017. CF, p
581; TR 10/17/17, p 2:2-7. Mr. Anderson requested the appointment of substitute
counsel. TR 10/17/17, p 5:6-7. Mr. Anderson reiterated the grounds stated in his
letter. TR 10/17/17, p 5-8; Seal (16CR380 - Sealed File) (Letter dated 10/15/17), p
3-4. Defense counsel told the court that he did not threaten that Mr. Anderson
would receive a lengthy prison sentence, but rather explained the maximum
sentence he could face. TR 10/17/17, p 9:2-8. Defense could stated that he
conveyed a message from Mr. Anderson's father to Mr. Anderson. TR 10/17/17, p
9-10. Counsel stated that he did not believe that the pretrial motions Mr. Anderson
requested that he file were appropriate and he did not filed them.

In response to

the court's question regarding trial preparation, counsel responded, "[c]ertainly Mr.
Anderson and I have a different view of this trial." TR 10/17/17, p 10:2-6.
Defense counsel acknowledged that he did not have an opportunity to go
through the discovery and audio discovery in the case with Mr. Anderson. TR
10/17/17, p 10-11. Defense counsel denied that he was purposefully providing
ineffective assistance of counsel. TR 10/17/17, p 11-12.

The hearing on the motion to withdraw was held before a different judicial officer
that the trial court. TR 10/17/17, p 2-3.
10

Defense counsel believed that the conflict between him and Mr. Anderson
was so great that it resulted in a total lack of communication between them. TR
10/17/17, p 12-13. Mr. Anderson did not trust counsel because counsel could be a
witness against him. TR 10/17/17, p 14:10-14. Defense counsel stated, [a]t this
point in time there's been a complete breakdown between the two of us in being
able to discuss the matter." TR 10/17/17, p 14:19-21. Mr. Anderson did not
discuss trial matters with counsel. TR 10/17/17, p 14:22-25. The conflict with Mr.
Anderson prevented counsel from preparing an adequate defense. TR 10/17/17, p
15:1-11. Defense counsel agreed with Mr. Anderson that he should be appointed
new counsel. TR 10/17/17, p 15-16.
The district court denied ADC's motion to withdraw and Mr. Anderson's
request for the appointment of substitute counsel. TR 10/17/17, p 16-21.
The court of appeals determined the trial court properly denied Mr.
Anderson's request for substitute counsel. Anderson, ^ 4-9.
B. Law and Analysis
A trial court's decision to deny an indigent defendant's request for substitute
counsel is reviewed for an abuse of discretion. People v. Johnson, 2016 COA 15, |
29. A trial court abuses its discretion when its decision is manifestly arbitrary,

11

unreasonable, or unfair, or was based on a misunderstanding or misapplication of
the law. People v. Manyik, 2016 COA 42,

65.

Where an appellate court determines that a defendant's request for new
counsel was erroneously denied, the error will be reviewed for harmless error.
People v. Bergerud, 223 P.3d 686, 696 (Colo. 2010). Under harmless error review,
reversal is required where the error affects a substantial right and substantially
influenced the verdict or affected the fairness of the trial proceedings. Crider v.
People, 186 P.3d 39, 42 (Colo. 2008); see also People v. Rhea, 2014 COA 60,
42.

The United States and Colorado Constitutions guarantee those accused of
crimes the right to counsel. U.S. Const, amend. VI, XIV; Colo. Const, art. II, § 16.
When a defendant objects to his or her court-appointed counsel, the trial
court must inquire into the reasons for the dissatisfaction. People v. Bergerud, 223
P.3d at 694. The court is required to appoint substitute counsel for the defendant
if he or she can establish "good cause." People v. Bergerud, 223 P.3d at 706.
Good cause exists when there is a conflict of interest, a complete breakdown in the
communication, or an irreconcilable conflict that would lead to an unjust result.
People v. Krueger, 2012 COA 80,

14. "[Attorneys should not labor under

conflicts of interest or a complete breakdown in communications with their clients
12

that prevent them for putting on an adequate defense." People v. Bergerud, 223
P.3d at 694. However, disagreements as to matters of preparation, strategy, and
tactics do not establish good cause for the substitution of counsel. People v.
Kelling, 151 P.3d 650, 653 (Colo.App. 2006). A trial court may decline to appoint
substitute counsel when it "had a reasonable basis for believing that the attorneyclient relationship has not deteriorated to the point where counsel is unable to give
effective aid in the fair presentation of a defense." People v. Schultheis, 638 P.2d
8, 15 (Colo. 1981).
Courts consider several factors in assessing a request for substitute counsel:
(1) the timeliness of the motion; (2) the adequacy of the court's inquiry into the
grounds for the defendant's complaint; (3) if the attorney-client conflict is so great
that it resulted in a total lack of communication or otherwise prevented an adequate
defense; and (4) the extent to which the defendant substantially and unreasonably
contributed to the underlying conflict with his or her attorney. People v. Bergerud,
223 P.3d at 698.
Here, Mr. Anderson stated in his written request for the appointment of
substitute ADC counsel: (1) he desired to fire his court appointed attorney; (2)
counsel was not representing him to the best of his ability; (3) counsel was
intentionally providing ineffective assistance of counsel; (4) counsel was attempted
13

to sabotage his right to a fair trial and impartial judge; (5) he requested substitute
counsel be appointed; (6) counsel provided ineffective assistance of counsel in a
prior trial; (7) counsel refused to provided him with numerous items of discovery;
(8) counsel has done little jury trial preparation with him; (9) counsel refused to
file pretrial motions; (10) counsel threatened him with 30.5 years in prison if he
refused to take a plea offer; (11) counsel threatened him with his father's threat to
discontinue speaking to him if he did not take a plea deal; (12) he is extremely
uncomfortable proceeding with defense counsel as his attorney; (13) counsel
refuses to answer his questions about the case; and (14) requested that the court
appoint new ADC counsel. Seal (16CR380 - Sealed File) (Letter dated 10/15/17),
p 3-4. Defense counsel's motion with withdraw included that, inter alia, "[t]he
attorney-client relationship was irreparably broken." CF, p 194-195.
Mr. Anderson reiterated the grounds stated in his letter during a hearing on
the motion to withdraw. TR 10/17/17, p 5-8; Seal (16CR380 - Sealed File) (Letter
dated 10/15/17), p 3-4. Defense counsel believed that the conflict between him
and Mr. Anderson was so great that it resulted in a total lack of communication
between them. TR 10/17/17, p 12-13. Mr. Anderson did not trust counsel because
counsel could be a witness against him. TR 10/17/17, p 14:10-14. Defense
counsel stated, [a]t this point in time there's been a complete breakdown between
14

the two of us in being able to discuss the matter." TR 10/17/17, p 14:19-21. The
conflict with Mr. Anderson prevented counsel from preparing an adequate defense.
TR 10/17/17, p 15:1-11. Defense counsel agreed with Mr. Anderson that he
should be appointed new counsel. TR 10/17/17, p 15-16.
The Bergerud factors favor a finding that there was good cause for the
appointment of substitute counsel. First, Mr. Anderson did not "contribute" to the
attorney-client conflict. Counsel and Mr. Anderson had differing views of the
case. Second, the attorney-client conflict between Mr. Anderson and ADC was so
great that it resulted in a total lack of communication and prevented an the
preparation of an adequate defense. The reasons expressed both by Mr. Anderson
and ADC indicated breakdown of communications and a lack of trust. ADC told
the court that there's been a complete breakdown and the conflict with Mr.
Anderson prevented counsel from preparing an adequate defense. In Anaya v.
People, 764 P.2d 779 (Colo. 1988), the this court reiterated the important principle
that, "[b]asic trust between counsel and defendant is the cornerstone of the
adversary system and effective assistance of counsel." Anaya v. People, 764 P.2d
782 (quotation omitted). Mr. Anderson, therefore, established good cause for the
appointment of substitute counsel. Contrary to the court of appeals, it was an

15

abuse of discretion to deny Mr. Anderson's request for substitute counsel and
counsel's motion to withdraw.
The error was not harmless. While the right to counsel may not necessarily
include a "meaningful attorney-client relationship," People v. Arguello, 772 P.2d
87 (Colo. 1989), there was a complete breakdown in the communication with his
counsel, a complete lack of trust of defense counsel and a breakdown of the
attorney-client relationship between Mr. Anderson and defense counsel. Because
Mr. Anderson established good cause for the appointment of substitute counsel, he
no longer had effective representation. "This ability to change appointed counsel
upon good cause is unrelated to the right to counsel of choice; it protects only the
right to effective assistance of counsel. If good cause exists, a defendant no longer
has effective representation." Ronquillo v. People, 2017 CO 99, f 19 (citation and
quotation omitted).
Mr. Anderson respectfully submits that the issue of appointing substitute
counsel when a defendant has demonstrated good cause is an important issue faced
by courts throughout the State of Colorado. This court should grant certiorari
review to provide guidance to courts addressing this issue, correct the court of
appeals' erroneous decision, and to prevent injustice.

16

CONCLUSION
Petitioner, Chayce Aaron Anderson, respectfully requests this court grant
this petition for writ of certiorari.
Dated this 3rd day of September, 2020.

Respectfully submitted,
/s/ Tanja Heggins
TANJA HEGGINS, #32121
The Law Firm of Tanja Heggins, P.C.
303 South Broadway, Suite 200-363
Denver, Colorado 80209
ATTORNEY FOR PETITIONER
CERTIFICATE OF SERVICE
I certify that on September 3, 2020, a true and correct copy of the foregoing
PETITION FOR WRIT OF CERTIORARI was electronically filed via
Colorado E-Filing System addressed to the following:
Jennifer L. Carty, Esq.
Colorado Department of Law
Appellate Division
Ralph L. Carr Colorado Judicial Center
1300 Broadway, 9th Floor
Denver, CO 80203

/s/ Tanja Heggins
Tanja Heggins

17

